         U.S. Department of Energy
         Office of Inspector General
         Office of Audits and Inspections




Inspection Report
Allegations Concerning Contracting
for Services of Former Employees
at Sandia National Laboratories




INS-L-13-04                          March 2013
                               Department of Energy
                                Washington, DC 20585

                                     March 15, 2013


MEMORANDUM FOR THE MANAGER, SANDIA FIELD OFFICE, NATIONAL NUCLEAR
               SECURITY ADMINISTRATION



FROM:                    Sandra D. Bruce
                         Assistant Inspector General
                           for Inspections
                         Office of Inspector General

SUBJECT:                 INFORMATION: Inspection Report on "Allegations Concerning
                         Contracting for Services of Former Employees at Sandia National
                         Laboratories"

BACKGROUND

As part of the National Nuclear Security Administration, Sandia National Laboratories (Sandia)
is a multi-program national security laboratory managed and operated under a contract with
Sandia Corporation, a subsidiary of Lockheed Martin Corporation. Sandia conducts research
and development that supports critical strategic areas such as nuclear weapons, nonproliferation,
military technologies, energy and homeland security. Sandia subcontracts with various
suppliers for services not available at the Laboratories. In Fiscal Year 2011, Sandia's
subcontract costs totaled approximately $921 million. The Sandia Field Office is the Federal
entity responsible for administering the contract with Sandia.

The Office of Inspector General received an anonymous complaint alleging that: (1) Sandia
hired former employees as consultants at salaries exceeding what they were paid prior to
retirement; and (2) one former employee was brought back through an independent consulting
company for over a decade. It was also alleged that Sandia officials responsible for approving
certain hiring actions were adept at circumventing rules and regulations. We initiated an
inspection to review the facts and circumstances surrounding the allegations.

CONCLUSIONS AND OBSERVATIONS

We substantiated the allegations that Sandia hired former employees as consultants at salaries
exceeding what they were paid prior to retirement and that one former employee was brought
back through subcontracts for over a decade. Specifically, in eight cases we reviewed, Sandia
acquired the services of former employees and paid them a higher hourly rate than the employees
received prior to retiring. In addition, one former employee worked as a consultant over a
period of 10 years under two separate 5-year subcontracts. While neither of these conditions
violated any Federal guidelines, we did find that the practices we observed violated internal
Sandia policies regarding the employment of former employees. In two instances, the hiring of
former employees as consultants with higher hourly rates violated internal rules that prohibited
such practice if Sandia employment had ended within the previous year.

                                       Higher Hourly Rates

We determined that Sandia acquired the services of former employees and paid them a higher
hourly rate than the employees received prior to retiring. Our tests of eight contracts for
employees who retired revealed that in all instances the hourly rates were higher than the salaries
paid at the time of their retirement. We determined that in these cases, the hourly rates were
based on current market rates. However, in two of the eight cases we reviewed, the contracts
violated Sandia's policy of restricting hourly rates of former employees who were employed by
Sandia within the past year.

Specifically, Sandia Corporate Procedure SCM100.2.10, Acquire Services of Non-Employees,
indicates that, for the use of Professional Services Providers and Consultants, if Sandia
employment ended within the past year, the contract rate may not exceed the ending salary
divided by 2,080 hours. We were told that this procedure was put into place to discourage recent
retirees from returning to Sandia in the same or similar position at rates higher than what they
were paid prior to retirement. In the two instances that violated Sandia policy, the former
employees were paid hourly rates of $110.00 and $95.36, whereas at the time of retirement the
employees' hourly rates were $81.44 and $68.89, respectively. For the first year of the contracts
involved, the individuals were paid approximately $16,173 and $5,269 more than intended under
Sandia Corporate Procedure SCM100.2.10. The justification for the rates of pay provided by the
Sandia Contracting Representative in these two cases shows that the higher rates of pay were
based on comparisons to prior Sandia contracts with similar job description and the contractor's
price list that reflected their current charges.

However, with the exception of these two contracts, we generally did not identify issues with the
hourly rates paid to former Sandia employees. Specifically, we found no Federal, Department of
Energy or Sandia guidance that limited hourly rates beyond the restriction found in Sandia
Corporate Procedure SCM100.2.10. The governing criteria for determining the reasonableness
of the hourly rates paid was the Federal Acquisition Regulation (FAR) 15.404-1, Proposal
Analysis Techniques. This regulation establishes criteria for ensuring that an agreed-to price is
fair and reasonable.

                         Period of Performance for Consulting Contracts

We determined that a former Sandia employee had been hired as a consultant over a period of 10
years. This occurred under two separate 5-year subcontracts. Specifically, we found that the
former employee worked as a consultant from 2002 to 2007 under a 1-year consultant




                                                 2
agreement with four 1-year options through an independent company as the only employee.
Also, the same employee was hired as a consultant/sole proprietor in 2008 under a Professional
Service Agreement performing the same work as the previous contract with a period of
performance through 2013. However, we did not determine that Sandia violated any Federal
policy because there was not specific NNSA guidance prohibiting Sandia from contracting with
a former employee as a consultant over a period of 10 years when two separate 5-year
subcontracts were awarded.

Also, Sandia's Procurement Guideline 10.6.G, Consultants and Professional Service, allows for
the period of performance for consultant and professional service agreements to run a maximum
of 5 years. Specifically, the guideline indicates that consultant and professional service
agreements could exist up to 1 year, and may be renewed 1 additional year (not to exceed 5
years) after mutual consent from all parties. Therefore, under current Sandia policy, there would
not be a prohibition on hiring a consultant over a period of 10 years under two separate 5-year
subcontracts.

It should be noted that Sandia has been concerned about the use of former employees as
contractors and has explored ways of limiting the employment of former employees as
consultants, service contractors or staff augmentation employees. Specifically, Sandia was
concerned that existing policy did not sufficiently encourage line organizations to perform
appropriate succession planning and transfer historical knowledge. As a result, Sandia revised its
policy to limit, among other things, work hours and the overall period of performance as
reflected in the current language of Sandia's Procurement Guideline 10.6.G. However, as
evidenced by the condition we identified where a former Sandia employee had been hired as a
consultant over a period of 10 years, it is clear that under current policy the period of
performance of former employees hired as consultants can be extended for significant periods,
potentially muting Sandia's intent to limit the use of former employees.

We are not making any recommendations because we found no violations of Federal
or Departmental policy; therefore, a response is not required. This report is being
issued for information only. We appreciate the cooperation of your staff during our
inspection.

Attachment

cc: Deputy Secretary
    Acting Under Secretary for Nuclear Security
    Chief of Staff
    Manager, Sandia Field Office
    Director, Office of Internal Controls, NA-MB-20
    Director, Office of Risk Management and Financial Policy, CF-50
    Assistant Director, Office of Risk Management and Financial Policy, CF-50
    Audit Resolution Specialist, Office of Risk Management and Financial Policy, CF-50
    Team Leader, Office of Risk Management and Financial Policy, CF-50
    Audit Liaison, Sandia Field Office



                                                3
                                                                                       Attachment



                       OBJECTIVE, SCOPE AND METHODOLOGY

OBJECTIVE

The objective of our inspection was to review the facts and circumstances surrounding the
allegations that: (1) Sandia National Laboratories (Sandia) hired former employees as
consultants at salaries exceeding what they were paid prior to retirement; and (2) one former
employee was brought back through an independent consulting company for over a decade. It
was also alleged that Sandia officials responsible for approving certain hiring actions were adept
at circumventing rules and regulations.

SCOPE

This allegation-based inspection was performed between February 2012 and December 2012 at
Sandia National Laboratories in Albuquerque, New Mexico.

METHODOLOGY

To accomplish the inspection objectives, we:

   •   Interviewed Sandia and National Nuclear Security Administration personnel;

   •   Examined contract files of former employees;

   •   Reviewed and evaluated Sandia internal policies and procurement guidelines regarding
       contracts for services of former employees and acquiring services of non-employees; and,

   •   Reviewed the Federal Acquisition Regulation, Section 15.404 Proposal Analysis.

The inspection was conducted in accordance with the Council of the Inspectors General on
Integrity and Efficiency Quality Standards for Inspection and Evaluation. Those standards
require that we plan and perform the inspection to obtain sufficient, appropriate evidence to
provide a reasonable basis for our conclusions and observations based on our objectives. We
believe the evidence obtained provides a reasonable basis for our conclusions and observations
based on our inspection objective. The inspection included tests of controls and compliance with
laws and regulations to the extent necessary to satisfy the inspection objective. Because our
review was limited, it would not necessarily have disclosed all internal control deficiencies that
may have existed at the time of our inspection. Finally, we relied on computer-processed data, to
some extent, to satisfy our objective related to personal affiliation and hiring irregularities. We
confirmed the validity of such data, as appropriate, by conducting interviews and reviewing
source documents.

The exit conference with management was waived by NNSA.



                                                4
                                                                          IG Report No. INS-L-13-04



                                CUSTOMER RESPONSE FORM

     The Office of Inspector General has a continuing interest in improving the usefulness of its
     products. We wish to make our reports as responsive as possible to our customers' requirements,
     and, therefore, ask that you consider sharing your thoughts with us. On the back of this form,
     you may suggest improvements to enhance the effectiveness of future reports. Please include
     answers to the following questions if applicable to you:

          1. What additional background information about the selection, scheduling, scope, or
             procedures of the audit or inspection would have been helpful to the reader in
             understanding this report?

          2. What additional information related to findings and recommendations could have been
             included in the report to assist management in implementing corrective actions?

          3. What format, stylistic, or organizational changes might have made this report's overall
             message more clear to the reader?

          4. What additional actions could the Office of Inspector General have taken on the issues
             discussed in this report that would have been helpful?

          5. Please include your name and telephone number so that we may contact you should we
             have any questions about your comments.


     Name                           Date

     Telephone                      Organization

     When you have completed this form, you may telefax it to the Office of Inspector General at
     (202) 586-0948, or you may mail it to:

                                    Office of Inspector General (IG-1)
                                          Department of Energy
                                         Washington, DC 20585

                                       ATTN: Customer Relations

     If you wish to discuss this report or your comments with a staff member of the Office of
     Inspector General, please contact our office at (202) 253-2162.

I.
This page intentionally left blank.
The Office of Inspector General wants to make the distribution of its reports as customer friendly
and cost effective as possible. Therefore, this report will be available electronically through the
                                Internet at the following address:

              U.S. Department of Energy Office of Inspector General Home Page

                                           http://energy.gov/ig

  Your comments would be appreciated and can be provided on the Customer Response Form
                                 attached to the report.
